r—i

No.

FILED
SEP 1 4 2021

IN THE
SUPREME COURT OF THE UNITED STATES

ELIZABETH MAYA
PETITIONER
vs.
DEUTSCHE BANK NATIONAL TRUST COMPANY

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF FLORIDA/ THIRD DISTRIC COURT OF APPEAL

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ELIZABETH MAYA
(Your Name)
13370 SW 91 Terr# D
(Address)
MIAMI, FLORIDA 33186
(City, State, Zip Code)
J86-805-2584
(Phone Number)

QUESTION(S) PRESENTED

These case is of great public importance raise the question
whether the Fifth and Fourteenth Amendments to the United
State Constitution has been ignore exclusively Under the Due
Process and Equal Protection Clauses of the United States
Constitution. “A basic constitutional guarantee that all legal
proceedings will be fair and that one will be given notice of the
proceedings and an opportunity to be heard before the
government acts to take away one’s life, liberty, or Property.”
and as a matter of EQUITY this judgement would be inequitable,
unjust and the circumstance of this case
unconscionable .exclusively Under the Due Process and Equal
Protection Clauses of the United States Constitution. “A basic
constitutional guarantee that all legal proceedings will be fair
I request to this court to invoked the principle that “Equity
follows the law and cannot be used to eliminate its established
rules”

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

ARNOLD MAYA

RELATED CASES

Deutsche BankTrustCompany Vs. Arnold Maya2007-4899-CA-30 (01)., In the Circuit Court
Of the 11th Judicial Circuit, in Miami Dade County, Florida
Deutsche Bank Trust Company VS. Elizabeth Maya (SUPPLEMENTAL DEFENDANT NO. 2017-CA-489930(01) In the Circuit Court os the 11th Judicial Circuit, in Miami Dade County, Florida
Elizabeth Maya Vs. Deutsche Bank TRUST Company., etc. No. 3D18-914., Third District Court of Appeals,
State of Florida
Lower Court N0.07-4899
Deutsche Bank Trust Company Vs. Elizabeth Maya,. No.:20i9-oo7742-CA-oi., Division 30., in the Circuit
Court of the 11th Judicial circuit in Miamidade County, Florida
Elizabeth Maya Vs. Deutsche Bank Trust Company., No.: 3D20-259 (L.t No.:19-7742) In the Third District
Court of Appeal
Elizabeth Maya Vs. Deutsche Bank Trust Company., No.:SC2O-i807 Lower Tribunal No. 2019-007742-CA01., Suprem Court of Florida

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

3
.4.

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES

APPENDIX A

Mandate fron District Court of Appel of the State of Florida-Third District
And Opinion

APPENDIX B

Final Judgement In The Circuit Court of the 11th Judicial, in Miami Dade
Dade County of Florida

APPENDIX C

Supreme Court of Florida June 14,2021, Decision Denying Review

APPENDIX D

Supreme Court of Florida June 14, 2021 .Denying Rehearing

APPENDIX E

DEO UNEMPLOYMENT PETITIONER AND HOUSBAND

APPENDIX F

Opinion from Third District Court Of Appeal January 30,2019,AND MANDATE

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or, [
] is unpublished.
The opinion of the United States district court appears at Appendix,
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or, [
] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix N/A to the petition and is
[ 3 reported at
N/A
or,
[ 3 has been designated for publication but is not yet reported; or, [
3 is unpublished.
The opinion of the__
appears at Appendix_

N/A
to the petition and is

[ 3 reported at N/A
; or,
[ 3 has been designated for publication but is not yet reported; or, [
XX3 is unpublished.
>
1.

court

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________ .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____________
, and a copy of the
order denying rehearing appears at Appendix,
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ 3 For cases from state courts:
The date on which the highest state court decided my case was June 14.2021
A copy of that decision appears at Appendix C_____.
[ Xj A timely petition for rehearing was thereafter denied on the following date:
Junl4.2Q21________
, and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including
N/A
(date) on N/A
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

.

Constitutional Provisidns
Florida Constitution
Art X, Section 4

U.S.Const.amend.XIV., V

Federal Rule 8(e) (2) Affirmative Defense

Other Authorities

Administrative Order No.14-1 (Original Note Under Rule 2.215) as of
May 14, 2014................................. .
Statutes
Florida Statute Section 95.11(2) (c )

Florida Statute 55.10 (1)
OTHER
Denied DISCOVERY
IMC Medical Centers,LLC v. Deluca-So.3d-,46Fla.L. Weekkly D18(Fla.4thDC Augustl 1,2021)

3

STATEMENT OF THE CASE

This is a Foreclosure action , Respondent filed a complaint February
20, 2007 Against Arnold Maya., and on 2008 got a foreclosure judgment
but forget to add as a defendant the wife ( Elizabeth Maya) after 10 years
file a supplemental Foreclosure action on August 2016 Under 2008
Order of final Judgement, and get a supplemental judgement for 352000
against the Wife Elizabeth Maya ., then Petitioner Appeal Supplemental
final

judgement to the Third DCA, which on 1, 30,2019 issued an

opinion reversing the final Judgement and remanding the case to the
trial court. The Third DCA Dismiss that supplemental Judgement on
favor of the Petitioner. Then the Respondent file a new Foreclosure
action for the same action (Res Judicate) (Statute of limitations. MR.
Maya has been in continuous state of default., See Henry v. Halifax
Hosp. Dist., 368 So. 2d 432, 433 (Fla. 1st DCA 1979)., on 3-12-2019. This
property is Petitioner homestead and her homestead rights are protected
by Florida Constitution Article X,(4) and United States Constitution.,

:

( Fourteen Amendment) (Petitioner has never sing a Note or Mortgage.,
Petitioner has spent all her live savings for the past fourteen years after
two hurricanes laboring, maintaining , improving , and repairing the
homestead realty).

H

The damages awarded by the lower Court were (excessive)., First
Judgment was for $ 277,891.34 and Supplemental Judgment
$353,116.77 . ON JANUARY 30, 2019 The Third District Court of Appeal
3D18-914 Reverse the Supplemental JUDGEMENT., After the Mandate
from the appeal court Respondent file a new foreclosure Action
requesting the same Judge same action (Res^Judicate., Wells Fargo
Bank, N.A. v. Stabler., FLA 5th DCA June 28,2013)), Petitioner Elizabeth
Maya file an Objection ., but the new case was re-direct to the same
Judge, Case 2019-ca-007742, March 3,2019 , Petitioner file An Answer
and a counter Claim, on Petitioner counter claim, she is requesting the
court to value the equity she have on her Property, she have invested
her family savings for the past fourteen years (repairing and
maintaining after two hurricanes , invested $190.000)(Regions Bank v.
Cuny (Fla 1st DCA August 9,2013).,(National City Bank v. Nagel (Fla. 4th
DCA August 22,2012).

«A-\

Then Petitioner file five OBJECTIONS to
the court requesting for Discover^ Harvey Covington & Thomas, LLC v. WMC
Mortgage Corp., Fla. 1st DCA April 17,2012) (Deutsche Bank National Trust
Company v. Parada., Fla 3d DCA May 21, 2014) (Osorto v.Deutsche Bank
National Trust Company., Fla.401 DCA March 28,2012).,(Sao v. Wells Fckrgo
Bank,NA., FLA 1st DCA April 4,2013).,(Wolff v. Star Realty Trust nO. 12549
Corp., Fla. 3d DCA November 16,2011 ) STANDING (Osorto v. Deutsche
Bank National., Fla 4th DCA March 28, 2012) (Olivera v. Bank of America
N.A., Fla 2d DCA July 11.2014) and a right to DUE PROCESS (Ciaridge H,

LLC v. Ciaridge Hotel, LC., Fla 3d DCA August 3,2011) and made a request
for Jury trial and Also requested an evidentiary hearing (GMAC Mortgage,
LLC. V. Cheoengkroy(Fla. 4th DCA October 17,2012) with out any evidentiary
hearing or Discovery., the court grant a summary judgement for $413,389.68
(. (excessive)(Phillips v. Centennial Bank Fla. 3d DCA October 19,2011).and
abuse of process (Latam INVESTMENTS, LLC v. Holland& Knight, LLP., Fla.
3d DCA October 9,2013). Then on 02-05-2020 Petitioner file an Appeal and on
11-18-2020 The Third DCA Affirmed and on 12-14-2020 Petitioner, Elizabeth
Maya File Notice of Discretionary Jurisdiction.

H"'2'

REASONS FOR GRANTING THE Petition

.These Case raise the question whether Florida Constitution Article
X(homestead, Section 4) and the United states constitution is homestead
exemption is one of the most protective in the United States, It grants nearly
absolute protection from forced sale except in three special circumstances 1.
Payment of taxes and assessments thereon owed to the state, counties and
municipalities; 2. Obligations contracted thereon for the purchase,
improvement, or repair; 3. obligations contracted with persons in repairing or
improving the, field, or other labor performed on the house. (Fla. Const.
art.X,4(a). Florida law provides penalties to those violating civil laws, but
eliminating homestead rights guaranteed by the Florida Constitution is not
part of the punishment. Homestead exemption applies to all individuals
regardless of their class,status, or conduct. Neither the courts nor the
legislature can carve out exceptions to the Florida Constitution. Courts have
authority to carve out exceptions to enforcement of statutes and causes of
action. They can refuse to allow an action to proceed, or impose sanctions
against a responsible party, including dismissal, where a party engage in

1

Opinion November 18,2020 Elizabeth Maya vs. Deutsche Bank .,No3D20259 Lower Tribunal No. 19-7742

5

spoliation of evidence, if a debtor voluntarily brings about his or her own
financial decline from a deliberate divestment, and acts in bad faith or any
other inequitable or egregious conduct of a homeowner, such judicially made
exceptions will run afoul of Florida Constitution art.X(4) Likewise, the
legislature cannot enact statutes that modify or are contrary To the Florida
Constitution., NO branch of government has the authority To alter the Florida
Constitution. A debtor’s right to exempt homestead realty from levy flows
exclusively from Fla. Constart X .,4 This constitutional provision supersedes
any attempt by the judiciary or legislature of eliminating a debtor’s right to
exempt homestead from creditor’s claim . Homestead protection is a strict
limitation of the power of the judiciary and legislature to modify homestead
exemption. And Fifth and Fourteenth Amendments to the United State
Constitution has been ignore and as a matter of EQUITY this judgement would
be inequitable, unjust and the circumstance of This CA
unconscionable .exclusively Under the Due Process and Equal Protection
Clauses of the United States Constitution. “A basic constitutional guarantee
that all legal proceedings will be fair and that one will be given notice of the
proceedings and an opportunity to be heard before the government acts to
take away one’s life, liberty, or Property.” I request to this court to invoked the
principle that “Equity follows the law and cannot be u, N.A.,(Fla. 4th DCA
March 25,2015) Petitioner, Elizabeth Maya (Pro-Se) and in plaint English
r*i irciionf f>aeoe

cfatiitac

Clnrirla fnncfitiitinn

5*-i

artrl Tka Onnetitiitinn rvf Tha

spoliation of evidence, if a debtor voluntarily brings about his or her own
financial decline from a deliberate divestment, and acts in bad faith or any
other inequitable or egregious conduct of a homeowner, such judicially made
exceptions will run afoul of Florida Constitution art.X(4) Likewise, the
legislature cannot enact statutes that modify or are contrary To the Florida
Constitution., NO branch of government has the authority To alter the Florida
Constitution. A debtor’s right to exempt homestead realty from levy flows
exclusively from Fla. Const.art X .,4 This constitutional provision supersedes
any attempt by the judiciary or legislature of eliminating a debtor’s right to
exempt homestead from creditor’s claim . Homestead protection is a strict
limitation of the power of the judiciary and legislature to modify homestead
exemption. And Fifth and Fourteenth Amendments to the United State
Constitution has been ignore and as a matter of EQUITY this judgement would
be inequitable, unjust and the circumstance of This CA
unconscionable .exclusively Under the Due Process and Equal Protection
Clauses of the United States Constitution. “A basic constitutional guarantee
that all legal proceedings will be fair and that one will be given notice of the
proceedings and an opportunity to be heard before the government acts to
take away one’s life, liberty, or Property.” I request to this court to invoked the
principle that “Equity follows the law and cannot be u, N.A.,(Fla. 4th DCA
March 25,2015) Petitioner, Elizabeth Maya (Pro-Se) and in plaint English
nnrenant raeoc

efatutoe

Plrtrirla r'nnctituti

anH Tho ^nnetifutinn r»f Tha

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Elizabeth Maya

Date: September 14. 2021

G

